     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
                                               April 22, 2010             Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278
Report Number: A-02-07-01038

Jennifer Velez, Esq.
Commissioner
New Jersey Department of Human Services
222 South Warren Street
P.O. Box 700
Trenton, NJ 08625-0700

Dear Ms. Velez:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of New Jersey’s Medicaid Emergency Payment
Program for Nonqualified Aliens. We will forward a copy of this report to the HHS action
official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-02-07-01038 in all correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services

Enclosure

HHS Action Official:

Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
ROchiORA@cms.hhs.gov
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




  REVIEW OF NEW JERSEY’S
MEDICAID EMERGENCY PAYMENT
        PROGRAM FOR
   NONQUALIFIED ALIENS




                      Daniel R. Levinson
                       Inspector General

                          April 2010
                        A-02-07-01038
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                               INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal Government and State jointly fund and administer the Medicaid program. At the Federal
level, the Centers for Medicare & Medicaid Services (CMS) administers the program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Emergency Medical Services for Nonqualified Aliens

Pursuant to Section 401(b)(1)(A) of the Personal Responsibility and Work Opportunity
Reconciliation Act (PRWORA) of 1996 (P. L. No. 104-193), an alien who is not a qualified
alien 1 is not eligible for any Federal public benefit except for emergency assistance under Title
XIX of the Act for “care and services that are necessary for the treatment of an emergency
medical condition (as defined in Section 1903(v) of the Act)” and that are “not related to an
organ transplant procedure.”

Section 1903(v) of the Act and Federal regulations (42 CFR § 440.255) state that Federal
Medicaid funding is available to States for medical services provided to nonqualified aliens only
when those services are necessary to treat an emergency medical condition. For the purposes of
this report, a nonqualified alien is an individual who is not a citizen or national of the United
States and is not in a satisfactory immigration status. 2 This category includes aliens who are not
qualified under section 401 of the PRWORA and qualified aliens subject to the 5-year bar
specified in section 403 of the PRWORA.

The Act and Federal regulations define an emergency medical condition as a medical condition
manifesting itself by acute symptoms of sufficient severity that the absence of immediate
medical attention could reasonably be expected to result in placing the patient’s health in serious
jeopardy, serious impairment to bodily functions, or serious dysfunction of any bodily organ or


1
 A qualified alien is defined in section 431(b) as (1) an alien lawfully admitted for permanent residence, (2) an alien
granted asylum, (3) a refugee admitted to the United States, (4) an alien paroled into the United States for a period of
at least 1 year, (5) an alien whose deportation is being withheld, or (6) an alien granted conditional entry. In
addition, section 403 of the PRWORA states: “[A]n alien who is a qualified alien (as defined in Section 431) and
who enters the United States on or after the date of the enactment of this Act [August 22, 1996] is not eligible for
any Federal means-tested public benefit for a period of 5 years beginning on the date of the alien’s entry into the
United States with a status within the meaning of the term ‘qualified alien.’ ” However, section 403(c)(2)(a)
provides an exception for the care and services described in section 401(b)(1)(A).
2
  Section 1137(d)(1)(B)(iii) of the Act states that “the term ‘satisfactory immigration status’ means an immigration
status which does not make the individual ineligible for benefits under the applicable program.”


                                                           1
part. Federal regulations further specify that there must be “sudden onset” of the condition.
CMS allows each State to identify which conditions qualify as emergencies. 3

New Jersey’s Medicaid Emergency Payment Program for Aliens

In New Jersey, the Department of Human Services (the State agency) administers the Medicaid
Emergency Payment Program for Aliens. In November 1998, the State agency issued guidance
to providers regarding the program. 4 The guidance stated that an alien who does not qualify as
an eligible alien but who is a resident of New Jersey and would otherwise qualify for medical
assistance is entitled only to care and services necessary for the treatment of an emergency
medical condition as defined by section 1903(v)(3) of the Act. To facilitate the payment of
claims under the Medicaid Emergency Payment Program for Aliens, the State agency distributed
a list of more than 4,000 diagnosis, surgical, transport, and delivery procedures codes that it
defined as emergencies. The guidance indicated that claims related to diagnoses not defined as
emergencies could be claimed under the program with a signed physician’s certification that the
service was an emergency. 5

During our January 1, 2002, through December 31, 2006, audit period, the State agency claimed
$214,610,127 ($109,408,996 Federal share) for emergency services provided to nonqualified
aliens.

OBJECTIVE, SCOPE AND METHODOLOGY

Objective

Our objective was to determine whether the State agency had adequate internal controls to ensure
that, for nonqualified aliens, Federal Medicaid reimbursement was claimed only for what it
defined as emergencies.

Scope

Our audit period covered claims for emergency services provided to nonqualified aliens during
the period January 1, 2002, through December 31, 2006. We limited our review to the State
agency’s internal controls over the Medicaid Emergency Payment Program for Aliens.

We conducted our fieldwork at the State agency’s offices in Mercerville, New Jersey, and at
medical providers’ offices throughout the State.


3
  In November 1997, CMS issued guidance to the 12 States with the highest nonqualified alien population to report
funding for emergency services furnished to nonqualified aliens on Line 27 of the Form CMS-64, “Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program.”
4
    Division of Medical Assistance and Health Services newsletters (volume 8, numbers 64 and 65).
5
 Specifically, the attending physician is required to complete the State agency’s Form FD-80, Certification of
Treatment of Emergency Medical Condition to confirm the emergency nature of the encounter.


                                                          2
Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal and State laws, regulations, and guidelines;

   •   held discussions with State officials to gain an understanding of the State’s Medicaid
       Emergency Payment Program for Aliens;

   •   ran computer programming applications that identified 159,055 Medicaid claims, totaling
       $214,610,127 ($109,408,996 Federal share), for emergency medical services provided to
       nonqualified aliens;

   •   segmented the claims into two sampling frames: (1) a random sample frame that
       contained 140,921 Medicaid claims, totaling $190,464,294 ($96,660,804 Federal share),
       for emergency medical services; and (2) a judgmental sampling frame that contained
       18,134 Medicaid claims, totaling $24,145,833 ($12,748,191 Federal share) for
       emergency medical services which required further examination (e.g., services related to
       inpatient stays longer than 30 days, dialysis, chemotherapy, dental, psychotherapy);

   •   separated the random sample frame into two strata: (1) 89,504 claims that contained
       labor and delivery services (excluding delivery plus sterilization) and (2) 51,417 claims
       that contained other emergency diagnoses and physician certifications, and used stratified
       random sampling to select 50 claims from each strata;

   •   judgmentally selected 35 of the claims in the judgmental sampling frame; and

   •   obtained and reviewed medical records for the 135 sampled claims to determine whether
       the claims were eligible for payment under the State’s Emergency Payment Program for
       Aliens.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                   RESULTS OF REVIEW

The State agency’s internal controls were effective for ensuring that, for nonqualified aliens,
Federal reimbursement was claimed only for services it defined as emergencies. Therefore, this
report contains no recommendations.




                                                3
